No.

11-/6?

In the
SUPREME COURT OF THE UNITED STATES

GALEN J. SUPPES, Petitioner,
v.
CURATORS OF THE UNIVERSITY OF MISSOURI.
Respondent.
FILED

JUN 2 3 2019
,

OFFICE OF THE CLERK

On Petition for a Writ of Certiorari to tip.(supreme court, u.s.
Supreme Court of the State of Missouri

PETITION FOR A WRIT OF CERTIORARI

GALEN J. SUPPES
Petitioner, Pro Se
4 Bingham
Columbia, MO 65203
(573) 673-8164

1.

2.

3.

4.

QUESTIONS PRESENTED
Was the Judgment's demand of perpetual (no
limit in time or geography) and unconditional
payment of remunerations of sixteen years of
Defendant Suppes' "completed mental elements"
(employer's definition of "invention") a prohibited
practice of Patent Misuse?
Did the state circuit court improperly create new
patent law, in violation of existing Patent Law,
when the court ordered Suppes perpetually to pay
the Curators all remuneration Suppes received
for inventions:
(i) for which no patent application was made,
(ii) for which Plaintiff did not patent,
(ii) for Suppes' mere "transfer" of an invention,
or
(iii) for over fifty inventions with no regard to
which Party properly owned rights to each
invention or even if there were any legally
enforceable rights to be owned on any
specific invention.
Was the Respondent's arbitrary pursuit of courtenforced demands of perpetual ownership of
sixteen years of Suppes' "completed mental
elements" (Respondent's definition of "invention")
a violation of the Equal Protection Clause of the
Fourteenth Amendment to the United States
Constitution?
Was the Appeal Court Opinion that "Only if the
University affirmative [ly] waives its rights to an
invention may an employee seek a patent for the
invention independently." a violation of the Due
Process Clause of the Fourteenth Amendment to
the United States Constitution?

RELATED CASES
Judgment, 13th Judicial Circuit Court of Boone
County, Missouri, Case. No. 09-BA-CV02314,
The Curators of the University of Missouri v.
Galen J. Suppes and Homeland Technologies,
LLC, October 12, 2017.
Opinion, Missouri Court of Appeals Western
District, WD81278, The Curators of the
University of Missouri v. Galen J. Suppes,
January 8, 2019.
Disp-App Tran to SC Denied, Supreme Court of
Missouri, SC97734, The Curators of the
University of Missouri v. Galen J. Suppes, April
30, 2019.
TABLE OF CONTENTS
OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION
TABLE OF APPENDICES
APPENDIX A: Judgment, state circuit court
APPENDIX B: Opinion, state appeal court
APPENDIX C- Denial for Transfer, state
supreme court

1
1
2
3
5
12

A-l
B-l
C-l

TABLE OF AUTHORITIES
Cases
Healthcare Svcs. of the Ozarks, Inc. v. Copeland (198
11
S.W.3d 604, 609-10; Mo. banc 2006)
Mallinckrodt, 976 F.2d at 704.............
4,8
Statutes
35 USC 271(a).........................................
35 USC 271(d).........................................

4, 11
4

Other Authorities
CRR 100.020 ...........................................

13

Constitutional Provisions
Due Process Clause..........
Equal Protection Clause..

1, 4
1,4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner Galen J. Suppes respectfully prays that
a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
The decision of the state supreme court to review
the merits appears at Appendix C and is the denial
by the Supreme Court of Missouri for transfer. The
concise denial is not published, but appears on the
case docket.
The opinion of the Missouri Appeals Court
appears at Appendix B to the petition. The court's
opinion is published as The Curators of the
University ofMissouri, Respondent, v. Galen J.
Suppes, Appellant, WD81278 (Mo. Ct. App. Jan. 8,
2019).
The judgment of the 13th Circuit Court of
Missouri appears at Appendix A to this petition. The
Judgment case reference is The Curators of the
University ofMissouri v. Galen J. Suppes, Boone
County Case No. 09-BA-CV02314.
JURISDICTION
The Missouri Supreme Court issued its decision
(denying transfer) on April 30, 2019. The jurisdiction
of this Court is invoked under 28 U.S.C. § 1257(a).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Doctrine of Patent Misuse
Patent Misuse is an active defense against
penalty, but its definition is only indirect and caselawbased. The following are two defining
references1) The term "misuse" and "illegal" show up one time
each in USC 35 per 35 USC 271(d): "(d) No patent
owner otherwise entitled to relief for infringement
or contributory infringement of a patent shall be
denied relief or deemed guilty of misuse or illegal
extension of the patent right".
2) "[T]he doctrine of patent misuse [has a policybased purpose] ... to prevent a patentee from
using the patent to obtain market benefit beyond
that which inheres in the statutory patent right."
Mallinckrodt, 976 F.2d at 704.
35 USC 271(a)
"(b) Whoever actively induces infringement of a
patent shall be liable as an infringer. "i
Constitutional Provisions
Equal Protection Clause: "nor shall any State [...]
deny to any person within its jurisdiction the
equal protection of the laws" (14th Amendment).
Due Process Clause: "No person shall... be deprived
of life, liberty, or property, without due process of
law." (5th Amendment), "nor shall any State
deprive any person of life, liberty, or property,
without due process of law (14th Amendment)."

1 Infringement is of a patent. The patent must be issued for
court action to be started.
2

STATEMENT OF THE CASE
On or about October 12, 2017, the Boone County
Missouri Circuit Court entered judgment against Petitioner
("Suppes") in the amount of $600,000, finding in
accordance with the jury that he had breached his
contract with, and his duty of loyalty to the
University (the “Judgment”). The Judgment
included four orders of injunctive relief.
Subsequent to the Judgment, the following
occurred:
• Appeals Court, Opinion-Affirmed, January 8,
2019.
• Appeals Court, Mot for Withdrawal of Counsel
(in favor of Pro Se) Sustained, January 23,
2019.
• Appeals Court, Mot for Rehearing (Pro Se),
denied, January 26, 2019.
• Missouri Supreme Court, Application for
Transfer to Supreme Court, denied (Pro Se),
April 30, 2019.
Prior to Petitioner assuming Pro Se
representation on January 23, 2019; Petitioner's
attorney based the defense around his impression
that the Respondent had not justified damages under
contract law. The Constitutional and Patent Law
issues presently before Supreme Court of the United
States were substantially not considered in the
Judgment and the Appellant Court Opinion.
The Patent Law and Constitutional issues before
this court reside in the Respondent's interpretation
and subsequent actions of the employee-contract
phrase from the University's Collected Rules and

3

Regulations (CRR) section 100.020.B ("Clause"),2
which states:
"... and each Employee as a condition of
employment agrees to execute any
assignments requested by the University."
within the context of the Clause, agents of the
University demanded assignment of Petitioner's
inventions where invention was broadly interpreted
as "completed mental elements".
CRR Chapter 100.020, which is entitled "Patent
and Plant Variety Regulations". Respondent
presented the Clause to Petitioner under the
auspices of patent rules.
Agents of the University interpreted the Clause
liberally, including demanding assignments for
inventions (i) without intent to file for patent, (ii)
without limit in time (i.e. forever), (iii) without limit
in geography, (iv) without any intent to pursue
outside any "cherry picking" that came their way,
and (v) at times including demands that any future
invention improvements to an invention also
belonged to the University.
In the Judgment (Page B-4, Item 3, hereafter,
"Declaratory Judgment 3") the Court ordered
Petitioner to pay Respondent University all
remuneration Petitioner received as related to his
"completed mental elements" (i.e. Inventions) of the
past sixteen years, including merely "transferring" a
"completed mental element". The Order was
effective without limit in time or geography. -

2 Available at
https7/www.umsystem.edu/ums/rules/collected_rules/
business/chl00/100.020_patent_and_plant_variety_regulations .

4

In the context of Declaratory Judgment 3 (and in
about October of 2018), Petitioner recognized the
Clause as an illegal restraint of trade (e.g. a noncomplete) presented under the designation of
invention assignments. As an illegal non-compete,
the Clause is unenforceable! except for the
"technicality" that Petitioner has a court order to
succumb to the illegal non-compete.
To date, no court has written a judgment or an
opinion on the federal Questions of this appeal to the
US Supreme Court, because (i) the legal theory only
began to mature too late and (ii) Petitioners former
attorney failed to deviate from another course of
appeal. Requests to consider were denied by the
Missouri Supreme Court, and related objections are
not preserved as part of the jury trial.
REASON FOR GRANTING THE WRIT
I.
THE COURT SHOULD GRANT THE WRIT TO
DETERMINE THE CONDITIONS UNDER WHICH
"ASSIGNMENT OF INVENTIONS" IS A
PROHIBITED PRACTICE OF PATENT MISUSE
Case law on Patent Misuse (e.g. Mallinckrodt, 976
F.2d at 704} is substantially only related to patent
owners improperly extending the terms to a licensor
beyond what Patent Law intended to cover. The
federal question is whether inventors have similar
protections from employers/ universities who demand
ownership of employees-inventions as part of the
employers patent rules. This is:
• not a matter of trade secrets, since both
academic freedom and investigator-vested
knowledge (versus company-vested
5

knowhow) of universities is generally
incompatible with university ownership of
trade secrets (and trade secrets are not
mentioned in the CRR) and
• not a matter of universities being able to
protect their interests since a 35 USC 115
Substitute Statement enables a university
to protect its interests by filing for patent
(so long as the invention is disclosed).
Declaratory Judgment 3 (Page B-4, Item 3) reads
that Petitioner wilP
"3. Pay over to Plaintiff University all revenue
and other consideration received by Defendant
Suppes, including but not limited to
license/option fees, milestone fees, royalty
payments and sales revenues, from the
licensing, assignment, sale or other transfer of
the inventions contained in the sworn
statement described in Paragraph 1 above,
other than for such inventions for which
Plaintiff University previously has provided to
Defendant Suppes a written waiver or a
written assignment or reassignment".
Subsequent to the Judgment, Petitioner tried to gain
rights to an invention by filing a petition in Boone
County, MO, Case No. 18BA-CV01139, wherein, the
University opposed the request in court, and the
judge dismissed the case without comment. Hence,
the University and local courts are interpreting
Declaratory Judgment 3 as a broad-based restraint
on Petitioner including that the Petitioner must
perpetually pay the Respondent all remuneration
received for each and every invention regardless oP

6

•

the failure of the University to pursue
patent and
• no vested business interest of the
University in the invention.
The restraint on the trade of Petitioner is without
limit in time or geography.
Declaratory Judgment 3 applies to sixteen years
of the Petitioner's "completed mental elements" (16
years of employment), which the
Respondent/University claims to be all the chemical
engineering field. When the University terminated
Petitioner's job in May of 2017; he was restrained
from pursuing a meaningful career in chemical
engineering because of that ruling.
Petitioner suggests that the US Supreme Court
should prohibit practices such as Declaratory
Judgment 3 as a prohibited Patent Misuse! and more
specifically, ownership of inventions by universities
should be temporally limited to the few months it
takes for the university to apply for patent.
Petitioner suggests that the research power of all
U.S. universities is potentially compromised without
such protection to university employees.
This issue's importance emerges in the simple
question^
Why would any university researcher embark
on innovation if the primary result is the
university perpetually owning the researcher's
"completed mental elements", without
manifesting ofpatent, reward, or societal
benefit?
Patent Misuse should be recognized as a
Petitioner defense, and the entire Judgment should
be dismissed.

7

II.
THE COURT SHOULD GRANT THE WRIT TO
DETERMINE IF STATE CIRCUIT COURTS HAVE
THE RIGHT TO CREATE INTELLECTUAL
PROPERTY LAWS THAT ARE CONTRARY TO
PATENT LAW
Petition I (previous paragraphs) is incorporated
by reference herein. The following are disturbing
aspects of Petition L
• The Judgment creates a perverted
infringement penalty where the owner of the
patent must pay all remuneration to a former
employer.
• The Judgment creates a perverted
infringement penalty that is enforced without
granting of patent and is thus contrary to 35
USC 271(a).
• The Judgment creates a perverted
infringement penalty without temporal or
geographical limit.
The merit of this Petition II stands at face value from
the reading of Declaratory Judgment 3.
CRR Chapter 100.020, which is entitled "Patent
and Plant Variety Regulations". Respondent
presented the Clause to Petitioner under the
auspices of patent rules; and as such, the actions
qualify as an illegal practice of Patent Misuse
including the creation of new patent laws.
Petitioner suggests the US Supreme Court should
provide a ruling that state courts should enforce
Patent Law and advocate Patent Law remedies as
opposed to creating local versions of patent law.
It should be noted that while actions of the
Respondent were presented as pursuing "assignment
8

of invention", the outcomes are an illegal restraint of
trade that violate every principle of Healthcare Svcs. of
the Ozarks, Inc. v. Copeland (198 S.W.3d 604, 609-10; Mo. banc

2006). Respondent's actions are illegal restraints of
trade by every state's standards.
III.
THE COURT SHOULD GRANT THE WRIT TO
DECLARE THAT RESPONDENT VIOLATED
PETITIONER'S FOURTEENTH AMENDMENT
RIGHTS ON EQUAL PROTECTION
Petitions I and II are incorporated herein by
reference in this petition ("Petition III"). At face
value, it should be recognized that essentially no
meritorious researcher would accept a job from a
university that claimed to own all his/her "completed
mental elements" as completed during the scope of
employment (i) for all time hence forward, (ii) for all
nations, and (iii) in his/her profession.
At face value, the actions of Declaratory
Judgment 3 against Petitioner were unconscionable,
arbitrary, and capricious. The actions were
consistent with a restraint of trade wherein
Respondent pursued dominion over Petitioner and
then punished Petitioner for not succumbing to the
demands.
Evidence to date indicates that Respondent has
only made the contract interpretation of Declaratory
Judgment 3 against Petitioner.
The actions of the Respondent constitute dirty
hands that entrapped Petitioner and biased the Jury.
Petitioner asks that the Judgment against Petitioner
be dismissed in its entirety.

9

IV.
THE COURT SHOULD GRANT THE WRIT TO
DECLARE THAT APPEALS COURT VIOLATED
PETITIONER’S FOURTEENTH AMENDMENT
RIGHTS ON DUE PROCESS
Petitions I, II, and III are incorporated herein by
reference in this petition ("Petition IV"). The
Opinion (Page A-3) states^
"Only if the University affirmative [ly] waives
its rights to an invention may an employee
seek a patent for the invention independently."
(hereafter "Opinion's Clause")
In this instance, the CRR 100.020.D.l.b also states,
"An Employee of the University shall be entitled to
all rights resulting from any Invention or Plant
Variety which was made by her/him outside the
general scope of her/his University duties,".
Patent Law protected the interests of Respondent
with a due process through 35 USC 115 Substitute
Statement. That process consists of the Respondent
filing for patent and submitting the Substitute
Statement. It is a Patent Law process for an
employer to take ownership of a patent from an
uncooperative employee.
Patent Law provides for a balance of rights, since
the inventor/Petitioner can also file for patent. In
this balance, both the Petitioner and Respondent are
able to pursue rights as opposed to an improper
dominion of one over the other.
The Opinion Clause gives the Respondent
improper dominion over Petitioner. And for dozens
of inventions, the Petitioner failed to (i) pursue
patent, (ii) affirmatively waive rights back to

10

Petitioner, or even (iii) document the basis for
Respondent claiming rights to an inventor.
35 USC 111(b)(1) states^
"(1) AUTHORIZATION.—A provisional
application for patent shall be made or
authorized to be made by the inventor,".
Similar statements are made throughout 35 USC
Chapter 11 which vest default ownership of a patent
in the inventor.
At face value, the Opinion's Clause denies
inventors USC 35 Chapter 11 rights without process.
The Opinion's Clause destroys the balance of rights
set forth in USC 35; and in the case of the
Respondent, creates an improper dominion of
university administration and attorneys over
employeednventors.
The processes established in 35 USC create a
balance of power which promotes discussion and
compromise to work through disputes. The Opinion's
Clause trumps the process wherein a state court
vested improper dominion in administrators of a
state institute. Improper dominion typically
manifests in disputes, injustice, suppression, and
mediocrity! which is like a disease starting at state
universities and having the potential to spread
through the entire country.

11

CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
GALEN J. SUPPES
Petitioner, Pro Se
4 Bingham
Columbia, MO 65203
(573) 673-8164

12

